Archived: FY 2003 Performance and Accountability Report
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
ED PERFORMANCE & ACCOUNTABILITY
FY 2003 Performance and Accountability Report
including the FY 2003 Program Performance Report
Our Performance and Accountability Report for Fiscal Year 2003  PDF (5.6MB) presents federal expenditures on national education priorities and the results of those investments as measured against our 2002-2007 strategic plan objectives.  It includes  Appendices A-E and a Glossary  PDF (1MB). Printed copies are available by contacting ED Pubs. The report is available also as Word files.
The Program Performance Report for Fiscal Year 2003 provides information on the performance of programs administered by the Department.
Comments and suggestions on either document may be sent to sas@ed.gov.
Printable view
Share this page
Last Modified: 08/06/2008
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
Budget
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov